                                                                                    ......
                                                      :NATIONAL SCIENCE FOUNDATIL
                                                           ARLINGTON, VA 22"23 o·




                      •

                     ~             ~"
                     :.                CI

                     \ lI''''DA'<''i
                  Office of
              Inspector General



           MEMORANDUM

                 i   DATE:

._- -------.. ----.-----~-~




               SUBJECT:




                           . TO:            cas.e No. I94070034
                      ..
                          '-                     .,
              On July 29,                    ~994,  the Directorate for B    .
              pas ed along                       request for information from
              The                                      wanted information on·
              ~~~~~~~.               . th~lIIIIIIIIefe~~~I~e wa;f· Ci~!~!~£o~
           ·General to investigate the matter because they were concerned that
           - - - - . . . . the _                fellow, might be attempting to
           ~d Sta es·· o-ver ent.




                                                                                             one year

          As we found no evidence to· substantiate the allegation that Ms"
          _     was attempting to defraud the United States GOViilillr·
          further investigation is not warranted at this time.      _
          ~was informed that they needed to file a FOIA request if
          ~ted information from the award file o.f. NSF award _

                                                                                                            ,
              This case is closed.                                                                          I
                                                                                                        .
                                                                                                            II
                                                                                                            i
                                                                                                            I




-------------~------------.---.--
